OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’S MANAGE-
TO-BUDGET INITIATIVE

AUDIT REPORT NO. 9-000-09-001-P
October 8, 2008




WASHINGTON, DC
Office of Inspector General



October 8, 2008

MEMORANDUM

TO:                  USAID/M/MPBP, Director, Angelique Crumbly
                     USAID/M/ICFO, Chief Financial Officer, David Ostermeyer

FROM:                IG/A/PA, Director, Steven H. Bernstein /s/

SUBJECT:             Audit of USAID’s Manage-to-Budget Initiative (Report No. 9-000-09-001-P)

This memorandum transmits our final report on the subject audit. We have considered your
comments on the draft report in finalizing the audit report and have included your responses in
appendix II of the report.

The report contains seven recommendations intended to improve USAID’s implementation of the
manage-to-budget initiative. Based on your comments, management decisions have been
reached for recommendation nos. 1, 2, 5, 6, and 7. Please provide USAID’s Audit, Performance,
and Compliance Division (M/CFO/APC) with the necessary documentation demonstrating that final
action has been taken on these recommendations. A management decision for recommendation
nos. 3 and 4 can be reached when USAID’s Office of the Chief Financial Officer has a plan of
action that includes timeframes for completing the actions.

Again, I want to express my appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 4

     Greater Transparency and Accountability Were Achieved.......................................... 5

     Financial Performance Has Moved to “Green” Status ................................................ 6

     USAID Established Target Ratios ............................................................................... 8

     Incentives Should Be Provided ................................................................................... 9

     Plan for Decentralizing Operating Expenses Should Be Updated ............................ 10

     Expanded Object Class Codes Should Be Verified .................................................. 12

     Efficiency and Effectiveness Measures Should Be Linked........................................ 13

     Communication Needs to Be Improved .................................................................... 15

Evaluation of Management Comments ....................................................................... 19

Appendix I – Scope and Methodology ........................................................................ 20

Appendix II – Management Comments ....................................................................... 22

Appendix III – Fiscal Year 2007 Total Administrative Ratios .................................... 25
SUMMARY OF RESULTS
In April 2005, Congress and the Office of Management and Budget requested that
USAID examine the cost of its operations to provide for better transparency and
accountability, and to introduce incentives and benchmarks for efficient management. In
response, USAID established the manage-to-budget initiative. The initiative’s main
objectives were to (1) increase and improve transparency; (2) improve accountability;
(3) provide incentives to managers to control costs (i.e., reduce overhead and reduce
use of program funds for administrative purposes); and (4) decentralize operating
expense budgets to provide greater flexibility so that operating units can manage,
control, and account for their own operating expense funds. The purpose of this audit
was to determine if USAID’s manage-to-budget initiative achieved its intended results
and what its impact has been (page 3).

Of the four objectives USAID intended to achieve with the manage-to-budget initiative,
USAID met objectives one and two and partially met objectives three and four. Because
USAID designed and piloted the manage-to-budget initiative in fiscal year 2006 and
implemented it in fiscal year 2007, it is too early to determine the full impact of the
initiative (page 4).

Nevertheless, the manage-to-budget initiative has made progress in changing the way
USAID budgets and manages costs. The initiative’s achievements include the
(1) establishment of a new standard set of expanded object class codes to capture both
operating expense and program-funded administrative costs to provide a better
understanding of the full cost of doing business at USAID; (2) establishment of a
compensation tracking system to report on U.S. direct hire budgets of each operating
unit and provide managers with complete details of salary and benefit budgets and
surpluses realized by each operating unit; (3) establishment of target overhead ratios
that helped to control costs; and (4) contributions to the Agency’s “green” financial
performance rating on the President’s Management Agenda scorecard issued by the
Office of Management and Budget (pages 5 to 8).

However, in addition to these positive results, this audit identified opportunities to
strengthen USAID’s implementation of the manage-to-budget initiative: (1) personal
incentives have not been provided to motivate managers to meet operational
administrative targets used to measure the efficiency of the operating unit, (2) office
space and information technology (IT) support costs have not been decentralized, (3)
the expanded object class codes were not verified on a regular and timely basis, (4) the
impact of efficiency and effectiveness measures have not been linked, and (5)
insufficient communication was provided to missions and bureaus/offices (pages 9 to
18).

This report includes five recommendations for USAID’s Management Bureau’s Office of
Management Policy, Budget, and Performance and two for the Office of the Chief
Financial Officer:

    •   Develop an incentive plan for implementation of the manage-to-budget
        initiative in coordination with the missions and the bureaus/offices, which
        includes target dates (page 10).


                                                                                       1
    •   Develop an action plan with timelines and milestones to decentralize
        office space and IT support costs, or make formal decisions that office
        space and IT support costs will not be decentralized (page 11).

    •   Establish an action plan, with target dates, for verifying the reliability of
        the object class coding on a regular basis throughout the year (page 13).

    •   Obtain confirmation from all impacted operating units that the coding
        errors identified have been corrected (page 13).

    •   Establish indicators for measuring the success or impact of the manage-to-
        budget initiative by linking effectiveness and efficiency measures (page 15).

    •   Revise the project plan for the manage-to-budget initiative, which
        includes the plan’s purpose, overall goals and objectives, current status,
        achievements to date, short-term and long-term goals, scope and
        expectations, milestones for meeting those goals, communication plan,
        and responsible personnel (page 18).

    •   Conduct a survey or evaluation of the implementation of the manage-to-
        budget initiative (page 18).

USAID’s Management Bureau’s Office of Management Policy, Budget, and Performance
and the Office of the Chief Financial Officer agreed with the findings and
recommendations in the report. Based on the comments from the two offices,
management decisions have been reached for recommendation nos. 1, 2, 5, 6, and 7. A
management decision for recommendation nos. 3 and 4 can be reached when USAID’s
Office of the Chief Financial Officer has a plan of action that includes timeframes for
completing the actions. Management comments in their entirety are included in
appendix II.




                                                                                        2
BACKGROUND
In the past, USAID centrally managed many of its operating expenses and used program
funds for administrative purposes without transparent, comprehensive reporting. The
enactment of the Federal Funding Accountability and Transparency Act of 2006 and the
opinions of congressional oversight committees have led USAID to introduce an initiative
that provides for more control and decisionmaking along with increased transparency for
greater management flexibility, more economical management of human and other
resources, and greater motivation by individual managers and organizational entities to
operate more efficiently and economically.

In April 2005, Congress and the Office of Management and Budget requested that
USAID examine its administrative budget process to fully understand the costs of
operations and provide managers with incentives to control costs. This exercise was
called the “shadow budget.” In April 2006, the USAID Administrator stated in testimony
to the House International Relations Committee that USAID would broaden the shadow
budget exercise to accelerate the manage-to-budget initiative worldwide in fiscal year
(FY) 2007. This initiative would strategically align operating expense resources with
program resources to ensure that USAID has the most efficient and effective
administrative operations feasible.

The manage-to-budget initiative was established to satisfy the requirements of Congress
and the Office of Management and Budget. Its main objectives were to increase and
improve transparency; improve accountability; provide incentives to managers to control
costs (i.e., reduce overhead and reduce use of program funds for administrative
purposes); and decentralize operating expense budgets to provide greater flexibility so
that operating units can manage, control, and account for their own operating expense
funds.

The initiative was designed and piloted in FY 2006 and fully implemented in FY 2007 by
USAID’s Management Bureau’s Office of Management Policy, Budget, and
Performance.


AUDIT OBJECTIVE
As part of the FY 2008 annual audit plan, the Office of Inspector General conducted this
audit to answer the following question:

       Has USAID achieved its intended results for the manage-to-budget
       initiative, and what has been its impact?

Please refer to appendix I for the audit’s scope and methodology.




                                                                                      3
AUDIT FINDINGS
Of the four objectives USAID intended to achieve with the manage-to-budget initiative,
USAID achieved two and partially achieved the other two.

USAID established the initiative to satisfy the requirements of Congress and the Office of
Management and Budget. Its main objectives were as follows:

        1.   Increase/improve transparency.

        2.   Improve accountability.

        3.   Incentivize managers to control costs (i.e., reduce overhead and
             reduce use of program funds for administrative purposes).

        4.   Decentralize operating expense budgets to provide greater flexibility
             so that operating units can manage, control, and account for their
             own operating expense funds.

USAID met objectives one and two by (a) establishing a new standard set of expanded
object class codes to capture both operating expense and program-funded
administrative costs to provide a better understanding of the full cost of doing business
at USAID; (b) establishing a compensation tracking system to report on U.S. direct hire
budgets of each operating unit and provide transparency of salary and benefit budgets
and surpluses realized by each operating unit; and (c) establishing target overhead
ratios to help control costs.

With respect to the third objective, the target measures were established to control
costs, but employee productivity incentives were not implemented.

With respect to the fourth objective, USAID initially planned to decentralize U.S. direct
hire salaries and benefits, office space, and information technology (IT). U.S. direct hire
salaries and benefits budgets were decentralized to allow managers control over labor
resources. However, office space and IT budgets were neither decentralized nor
included as part of the operating unit budgets.

USAID designed and piloted the manage-to-budget initiative in fiscal year (FY) 2006 and
implemented it in FY 2007. It is too early to determine the full impact of the initiative,
although the initiative has made progress in improving transparency and has contributed
to the Agency’s “green” financial performance rating on the President’s Management
Agenda scorecard issued by the Office of Management and Budget. 1 USAID has also
changed the way it budgets and manages costs and has met the target ratios
established to measure the efficiency or cost containment of USAID’s program and
administrative costs. In addition to the positive results, this audit identified opportunities
to strengthen USAID implementation of the manage-to-budget initiative.

1
  The President’s Management Agenda is a strategy for improving the management and
performance of the Federal Government. A scorecard is used to track how well the departments
and major agencies are executing governmentwide management initiatives.


                                                                                            4
The following three sections discuss the accomplishments, followed by four sections that
discuss opportunities for improving the implementation of the initiative.

Greater Transparency and
Accountability Were Achieved
Under the manage-to-budget initiative, USAID has achieved greater transparency and
accountability by establishing the expanded object class coding, compensation tracking
system, and mission overhead ratios.

Expanded Object Class Coding

Since the late 1970s, the Office of Management and Budget (OMB) and Congress have
criticized USAID for not being able to demonstrate how its funds are spent (i.e., lack of
transparency and accountability). OMB has insisted that USAID expand the use of the
OMB accounting classification structure to capture costs in a manner that allows
management to use the data to make informed decisions and ensure that resources are
used efficiently.

In June 2006, USAID adopted a new standard set of classification codes to move
forward with full transparency on funding use and to comply with OMB reporting
requirements. Every commitment, subcommitment, obligation, and subobligation,
regardless of funding source, is captured at the class code level.

The OMB major object classes fall under five general classifications:

      Series 10 – Personnel Compensation and Benefits

      Series 20 – Services, Support, and Supplies

      Series 30 – Property and Equipment (Real and Nonexpendable Property)

      Series 40 – Grants, Subsidies, and Fixed Charges (Developmental
      Interventions)

      Series 90 – Other (Confidential Activities)

Working with OMB, USAID developed additional subclassifications of object classes. In
addition to the OMB object classification system, the Office of Personnel Management
categorizes personnel compensation and benefits under approximately 40 separate
object classes. The Office of Personnel Management object class obligations are
reported under approximately 20 separate employee personnel classifications. As a
result, USAID’s expanded object class code structure is in excess of 400 separate object
class codes to enable USAID to meet the requirements of both OMB and the Office of
Personnel Management.

The new system that USAID has implemented helps USAID to better meet an OMB
requirement to report annually 100 percent of the funding (program and operating
expenses) by OMB-mandated class codes. According to the Management Bureau, for



                                                                                       5
several years USAID could not easily capture the cost of implementing its program
activities because it did not have an accounting system that could systematically capture
the data. Noncompliance with this requirement prevented USAID from answering
questions about the uses of program funds for administrative purposes. Similarly,
USAID/Washington did not have a systematic way of tracking missions’ actual
administrative expenses. However, with the full deployment of Phoenix (USAID’s
worldwide financial system) in 2006, USAID began to capture all financial actions using
the new code structures. According to the Management Bureau, USAID managers use
the class codes to obtain more detail regarding administrative operations. The new
coding structure was effective in late FY 2006, but FY 2007 marked the first full year
when it became mandatory for USAID. Although several coding errors were identified
(discussed later in this report), USAID was able to provide more accurate and efficient
information on the full costs of administrative operations than it had in the past.

Compensation Tracking System

The compensation tracking system is a database application that integrates payroll
information for U.S. direct hires from various data sources. It collects and stores payroll-
related information for the manage-to-budget process. It also provides a tool to
automate the manual process for uploading information to the national payroll
processing center and other payroll files.

After piloting the system in FY 2006, the Management Bureau released the application
to all Washington operating units in FY 2007. The compensation tracking system
opened U.S. direct hire budgets of each operating unit to allow managers to have
complete details of salary and benefit budgets and surpluses of every operating unit.

Mission Overhead Ratios

USAID established targets to ensure the efficient and effective allocation of
administrative resources used to measure USAID’s cost containment of program and
administrative costs. According to the Management Bureau, these ratios were shared
with all the regional bureaus and have improved internal transparency and
accountability. These ratios are discussed further on page 8.

Financial Performance Has
Moved to “Green” Status
The President’s Management Agenda (PMA) is a strategy to improve the management
and performance of the Federal Government. The PMA contains five Governmentwide
goals to improve Federal management and deliver results that matter to the American
people:

      Strategic management of human capital.

      Competitive sourcing.

      Improved financial performance.




                                                                                          6
      Expanded electronic government.

      Budget and performance integration.

A scorecard tracks how well departments and major agencies meet the five goals. OMB
issues the scorecards quarterly and employs a simple grading system common today in
well-run businesses:

      Green for success.

      Yellow for mixed results.

      Red for unsatisfactory.

The third goal, “improved financial performance,” requires agencies to report financial
information of mission programs and administrative operations in an accurate and timely
manner. The President expects a results-oriented Government whose managers
actively use financial information for effective and efficient business processes.

For the first time since the implementation of the PMA scorecard in 2002, USAID
achieved “green” status for “improved financial performance” in the first quarter of
calendar year 2007, as indicated in figure 1:

Figure 1. President’s Management Agenda Scorecard for USAID – Financial
Performance



             Mixed Results
             Unsuccessful
             Success




             Q2-Q4     Q1-Q4     Q1-Q4   Q1-Q4    Q1-Q4    Q1-Q4       Q1
              2002      2003      2004    2005     2006     2007     2008



Three manage-to-budget initiatives support the achievement of “green” status for
financial performance: (1) expand the object class code to capture program-funded
administrative costs; (2) decentralize U.S. direct hire compensation through the
compensation tracking system application; and (3) use mission overhead ratios to
control costs. With the manage-to-budget initiative, managers evaluate funding
decisions in an informed and strategic manner and make difficult choices based on
cost/value assessments.



                                                                                     7
USAID Established Target Ratios
To comply with the OMB requirements and to ensure the efficient and effective allocation
of administrative resources, USAID established targets to allocate operational and
administrative expenses for all operating units. These target ratios are used to measure
the efficiency or cost containment of USAID’s program and administrative costs and to
give operating units a planning tool for anticipating their operational budgets.

The program administrative cost ratio is total program funds used for operational
expenses as a percentage of the program fund’s new obligation authority. The total
administrative cost ratio is total program funds used for operational expenses and total
operating expense, including U.S. direct hire salaries and benefits, as a percentage of
the program fund’s new obligation authority. The recommended (by the Management
Bureau’s Office of Management Policy, Budget, and Performance) and estimated cost
ratios in FY 2007 for bureaus and missions are shown in table 1:

Table 1. Fiscal Year 2007 Operational Cost Ratios for Bureaus and Missions 2

                                  Target          Estimated       Target Total      Estimated
                                 Program          Program        Administrative       Total
                               Administrative   Administrative       Ratio        Administrative
                                  Ratio             Ratio                             Ratio
    Regional Bureaus and            6%               5%              12%              13%
    Missions
    Bureau for Democracy,          10%               3%              12%               4%
    Conflict and
    Humanitarian Assistance
    Bureau for Economic            44%              17%              55%              25%
    Growth, Agriculture, and
    Trade
    Bureau of Global Health        12%               5%              15%               7%

According to the Management Bureau’s Office of Management Policy, Budget, and
Performance, USAID exceeded seven of the target ratios and almost met one target
ratio in FY 2007 (as indicated in table 1), even though several missions fell short of their
targets (as discussed later in the report). According to the Management Bureau, the
long-term goals for the manage-to-budget initiative are for the estimated percentages to
decline over time and for operating units to incorporate these percentages into the
planning process.

As FY 2007 was the first full year of implementation, data are not available to determine
whether the estimated rates have declined over time. The operational cost ratios for
FY 2008 are set at 5 percent and 10 percent as the recommended program administrative
and total administrative ratios, respectively, for the regional bureaus and missions.




2
 The estimated numbers were provided by the Management Bureau and were not audited. The
estimated ratios were calculated by the Management Bureau using data uploaded by the
operating units into the Foreign Assistance Coordination and Tracking System.


                                                                                                   8
Incentives Should Be Provided
 Summary: According to Congress, USAID management, and the U.S. Government
 Accountability Office, incentives motivate managers to use resources more efficiently
 and effectively. USAID intended to provide incentives to managers and employees
 under the manage-to-budget initiative, but has not done so because of a lack of
 agreement among working group members and senior management on what incentives
 to provide and how the plan should be implemented. Incentives could motivate mission
 and bureau employees to meet operational administrative targets used to measure the
 efficiency of the operating unit.

According to the Management Bureau, the manage-to-budget initiative requires
appropriate incentives that motivate managers to use available resources more
efficiently and effectively, while eliminating disincentives that undermine the effort. It
requires comprehensive and systematic information about operational costs; accurate
and timely data on performance, results, and effectiveness; and useful and practical
tools for implementing management and budget decisions. In addition, the Standards
for Internal Control in the Federal Government issued by the U.S. Government
Accountability Office states that “Effective management of an organization’s workforce—
human capital—is essential to achieving results and an important part of internal control.
Only when the right personnel for the job are on board and are provided the right
training, tools, structure, incentives, and responsibilities is operational success possible.”
Congress supports the idea of USAID’s improving cost-effectiveness by introducing
management incentives and benchmarks.

According to the initial plan, USAID was to develop an incentives structure for the
manage-to-budget initiative that would implement the following types of incentives:

       • Personal incentives (such as bonuses, compensatory time, and
         recognition) that reward individuals who manage-to-budget effectively
         or who improve morale, effectiveness, customer service, and results
         within existing budgets; and

       • Organizational incentives (such as increased budget resources or
         flexibility) that reward missions, offices, and other organizational units
         for operating effectively and efficiently.

At the onset of the initiative, the Management Bureau formed a working group to develop
an incentive plan to improve productivity. The working group held several meetings that
resulted in some recommendations, but did not establish an incentive plan. According to
one mission, “If manage-to-budget were implemented properly with appropriate and
realistic target rates, it would be a good tool for more effective management of overhead
costs. However, there needs to be an effective incentive directly related to this effort.”

According to the Management Bureau, organizational incentives were provided by
allowing Washington operating units to control their U.S. direct hire budget and to keep
or redirect the “savings” resulting from staff lapse and/or attrition. However, a plan to
provide incentives that would improve productivity has not been established, primarily
because of disagreements among working group members and a lack of senior
management support to establish such a plan. Some still favor the plan, while others



                                                                                            9
fear that the plan would not work in a Government environment because it would
encourage managers to achieve the incentives dishonestly or at the expense of their
own mission or bureau/office.

According to the audit team’s survey, several missions that cut their staff to meet target
ratios reported that they have been left with low employee morale and an increased
workload. An award or incentive for those missions could motivate them to meet the
targets and offset the low morale. As described in more detail in appendix III, about 60
percent of the missions in each bureau did not meet the target ratios for administrative
costs. With an incentive plan, the manage-to-budget initiative could be more effective in
motivating managers to use available resources more efficiently and effectively.
Therefore, this audit makes the following recommendation:

       Recommendation No. 1: We recommend that the Management Bureau’s
       Office of Management Policy, Budget, and Performance develop an
       incentive plan for implementation of the manage-to-budget initiative in
       coordination with the missions and the bureaus/offices, which includes target
       dates.

Plan for Decentralizing Operating
Expenses Should Be Updated

 Summary: In response to Congress’s request to better understand and manage
 USAID’s costs, USAID planned to decentralize more of its operating expense budget.
 Congress asked USAID to consider decentralizing salaries and benefits, office space,
 and information technology. USAID decentralized only salaries and benefits for
 Washington in FY 2007 and deferred decentralization of office space and information
 technology until FY 2008. However, no communication was made related to
 decentralizing space and information technology (IT) support costs since FY 2006
 because of a lack of resources and changes in Agency priorities, according to the
 Management Bureau. Decentralizing costs was a goal of manage-to-budget; manage-
 to-budget may have limited impact if only salaries and benefits are decentralized.

Congress asked USAID to consider decentralizing salaries and benefits, office space,
and information technology. In response to Congress’s request to better understand and
manage USAID’s costs, USAID had plans to establish a budget for FY 2007 for all
operating units that decentralizes more of its operating expense budget and captures
allocations for office space and IT support costs. Eleven working groups were
established to assist in developing and implementing the manage-to-budget initiative.
They conducted initial analyses and made recommendations on how to expand the
scope of manage-to-budget to include decentralization of salaries and benefits, office
space, and IT support costs.

Salaries and Benefits – Only salaries and benefits have been decentralized in
Washington. Under the initiative, the operating units in Washington now manage the
U.S. direct hire payroll, which had been managed centrally by the Management Bureau.
Field missions already manage their budgets except for direct hire salaries and benefits,
as foreign-service hiring is done centrally to ensure the appropriate mix of individuals
with particular skills to support the various sectors across the Agency.



                                                                                       10
Office Space – A working group reviewed the feasibility of decentralizing office space
management in Washington to managers. Field missions already manage budgets for
rent and other costs associated with space management. The working group
considered areas of space management in Washington, where managerial decisions
could have an impact on space costs or efficiency.

The working group agreed that space management should remain centralized in the
Management Bureau during FY 2007 because (1) a project is under way to maximize
the efficiency and fairness of space allocation in the Ronald Reagan Building, and (2)
there would be no immediate cost benefit in providing managers with authority for space
management since space is currently a fixed cost for the Agency. However, the working
group planned to decentralize space management in FY 2008.

Information Technology Support Costs – A working group considered the feasibility of
decentralizing IT management. The centrally managed IT cost center funds the
management, operations, and maintenance of the Agency’s corporate systems,
worldwide telecommunications operations, and network/server platforms in Washington.
The group considered IT costs that may be reduced or efficiencies gained by delegating
funding decisions to organizational units.

The group determined that it would not be feasible to decentralize the budget for
infrastructure services because most of the expenditures for IT are fixed costs that do
not vary based on usage by individual employees. The working group also considered
whether there would be some benefit in distributing the budgets for corporate
applications to responsible offices and decided to explore options for possible
decentralization in FY 2008.

However, there has been no discussion or followup of decentralizing office space or IT
costs. The most recent communication regarding decentralizing space and IT was in
FY 2006. Salaries and benefits remain the only decentralized costs. According to the
Management Bureau, most offices were overwhelmed with the rollout of the manage-to-
budget initiative and delayed plans for decentralizing space and IT. Also, according to
the Management Bureau, priority changes and staffing shortages contributed to the lack
of discussion on this issue.

Decentralizing costs is a goal of the manage-to-budget initiative to provide office
managers with a better understanding of their operating costs and more responsibility
and flexibility to use the resources to the maximum advantage. The initiative may have
limited impact if only salaries and benefits are decentralized. Therefore, this audit is
making the following recommendation:

       Recommendation No. 2: We recommend that the Management Bureau’s
       Office of Management Policy, Budget, and Performance (1) develop an
       action plan with timelines and milestones to decentralize office space and
       information technology support costs, or (2) make formal decisions that
       office space and information technology support costs will not be
       decentralized.




                                                                                     11
Expanded Object Class Codes
Should Be Verified
 Summary: USAID guidance states that periodic reviews for completeness, accuracy,
 and consistency of data are to be conducted. In FY 2007, the Management Bureau
 noted that $1.2 billion was miscoded using the new coding structure. These errors
 were mostly noted in the Washington bureaus, not the missions, because, according to
 the Management Bureau, training in Washington was insufficient. In addition, the
 coding definitions were confusing to some users. The codes are used to produce
 financial reports and to make management decisions, and unreliable data can lead to
 poor decisionmaking.

Automated Directives System 203.3.5.2 states that the operating unit should be aware of
the strengths and weaknesses of its data and to what extent the data can be trusted to
influence management decisions. Also, the Standards for Internal Control in the Federal
Government issued by the U.S. Government Accountability Office states that agencies
should provide reasonable assurance concerning the reliability of financial and other
reports used internally and externally.

USAID adopted a new expanded object class code that captured the cost categories at
the commitment and obligation levels. FY 2007 was the first full year when USAID used
the new coding structure. According to the Office of the Chief Financial Officer, the
change was large and susceptible to errors since many bureaus and missions were not
familiar with the new codes. At the end of FY 2007, the Office of the Chief Financial
Officer generated a report that showed significantly high administrative costs, which
resulted in an investigation of the coding problems.

The Office of the Chief Financial Officer assembled a team to review all obligations and
subobligations recorded by expanded object class codes in FY 2007. The universe
consisted of approximately 160,000 transactions representing close to $15 billion of
activity. The results of the review disclosed approximately $1.2 billion in coding errors.
Most of the coding errors occurred at the Washington bureaus and not at the overseas
missions. Since the errors were identified after the end of the year, adjustments were
not made for FY 2007. According to the Office of the Chief Financial Officer, individual
operating units that had repeated errors received training on the coding structure.

A second review in early FY 2008 revealed approximately $95.5 million in coding errors.
According to the Office of the Chief Financial Officer, most of the errors from one bureau
were corrected.      However, according to the Management Bureau’s Office of
Management Policy, Budget, and Performance and the Office of the Chief Financial
Officer, because of staffing constraints there has been no followup with the other
bureaus to determine whether the errors have been corrected.

According to the Management Bureau, these errors occurred mostly at the Washington
bureaus and not the missions because training in Washington was not sufficient. In
addition, the coding definitions were confusing to some users.

The expanded object class codes are used to produce financial reports and to make
management decisions. Unreliable data can lead to poor decisionmaking. Also, if the
classifications are not accurate, reported data for target ratios cannot be relied upon


                                                                                       12
because the ratios are calculated using the cost data. Therefore, this audit makes the
following recommendations:

       Recommendation No. 3: We recommend that the Management Bureau’s
       Office of the Chief Financial Officer establish an action plan with target
       dates to verify the reliability of the object class coding on a regular basis
       throughout the year.

       Recommendation No. 4: We recommend that the Management Bureau’s
       Office of the Chief Financial Officer obtain confirmation from all impacted
       operating units that the coding errors identified have been corrected.

Efficiency and Effectiveness Measures
Should Be Linked
 Summary: According to the Foreign Assistance Act, USAID resources should be used
 effectively and efficiently. Also, according to the Government Accountability Office,
 both operational and financial data are necessary to determine the effective and
 efficient use of resources. However, the administrative targets used by USAID to
 measure efficiency do not take program effectiveness into consideration. The
 Management Bureau agreed that linking efficiency and effectiveness is important.
 However, since the manage-to-budget initiative was implemented only a year ago, it
 has not had sufficient time to focus on this issue. Without full consideration of the
 impact of efficiency and effectiveness measures, USAID risks making one gain or
 achievement at the expense of program developmental effectiveness, increased
 operational vulnerabilities, and other problems.

According to the Foreign Assistance Act of 1961, Congress requires that development
concerns be fully reflected in U.S. foreign policy and that development resources be
effectively and efficiently utilized. Also, the Standards for Internal Control in the Federal
Government states that “control activities should be effective and efficient in
accomplishing the agency’s control objectives.” It also states, “Program managers need
both operational and financial data to determine whether they are meeting their
agencies’ strategic and annual performance plans and meeting their goals for
accountability for effective and efficient use of resources.”

Effectiveness and efficiency are ways to measure an organization’s success.
Effectiveness (a measure of quality) is the extent to which the organization accomplishes
its purpose or mission. Efficiency (a measure of cost) reflects the relative cost at which
the organization is undertaking its activities. To fully achieve an activity or goal, both of
these conditions should be inextricably linked.

Efficient organization results in additional resources that can be used to benefit USAID
programs. Likewise, an effective organization achieves its goals. Table 2 lists the
benefits of an effective and efficient organization.




                                                                                          13
Table 2: Effective and Efficient Organization Matrix 3

                           Ineffective Organization             Effective Organization
    Inefficient            Goes out of business quickly         Survives
    Organization
    Efficient              Dies slowly                          Does well; thrives
    Organization

Table 2 shows that both efficiency and effectiveness must be linked and function
together to achieve an organization’s goal. These business concepts also apply to
Government agencies.

As discussed earlier in the report, USAID established program-funded operational
expense and total administrative expense target levels for all operating units. USAID
uses these target ratios to measure efficiency and expects that the target levels will
decrease over time. However, the targets do not take program effectiveness into
consideration. For example, a mission could reduce its mission support costs but not
meet program targets or not monitor activities sufficiently, resulting in fraud, waste, or
abuse of Government funds. Conversely, a mission could be effective (i.e., achieve
program results) but at a higher mission cost.

The audit team’s survey of the missions indicated that some achieved efficiencies as a
result of the manage-to-budget initiative, but at the expense of program oversight,
increased work requirements, significant staff anxiety, and staff morale issues. Other
missions indicated that overly restricting resources and reducing costs could increase
the risk of not being able to carry out USAID’s development mandate. Also, the reduced
costs could negatively impact the mission’s ability to preserve program integrity,
efficiency, and accountability.

Some missions expressed concerns that reduced administrative costs have yielded
short-term savings but could have serious negative consequences in the long term. For
example, according to one mission, “While manage-to-budget assisted in overall
reduction of management costs related to overhead, the restraints of the perceived
‘mandatory’ targets limited our flexibility to hire the necessary staff to implement our
program effectively and ultimately handicapped the mission.”

In other words, although USAID reported that it has generally met its established target
ratios, these targets do not provide an overall view of how it is operating as a whole.
The target ratios are not a useful measure of efficiency if they are used in isolation from
all other factors they affect. USAID needs to measure the program impact—negative,
positive, or none—of achieving the efficiency target. USAID should determine whether
achieving the targets undermined or otherwise impacted the program’s effectiveness.

The Management Bureau agreed that linking efficiency and effectiveness is important.
However, the Management Bureau has not had sufficient time to focus on this issue,
since it has had only 1 year of implementation. Without full consideration of the impact
of efficiency and effectiveness measures, USAID risks making one gain or achievement


3
 David Jobber, the author of Principles in Marketing, illustrates effectiveness and efficiency from
a marketing perspective.


                                                                                                14
at the expense of program developmental effectiveness and increased operational
vulnerabilities.

       Recommendation No. 5: We recommend that the Management Bureau’s
       Office of Management Policy, Budget, and Performance establish
       indicators for measuring the success or impact of the manage-to-budget
       initiative by linking effectiveness and efficiency measures.

Communication Needs to Be Improved
 Summary: USAID guidance states that managing for results means that USAID
 defines and organizes its work around the end result it seeks to accomplish, which
 means that it must make intended results explicit. However, in response to the audit
 survey, some missions and bureaus indicated that plan objectives and guidance were
 unclear. According to the Management Bureau, insufficient communication and
 attention to the operating units was primarily due to administration changes since the
 beginning of the initiative. Without a clear objective (which has been changed over the
 past 2 years), an update of the status of the initiative, and a plan for the future, the
 manage-to-budget initiative may not be effective. Also, unclear guidance results in
 increased costs of eliminating and then rehiring staff, uncertainty for all staff, and low
 staff morale.

Automated Directives System 200.3.2.1 states that managing for results means that
USAID defines and organizes its work around the end result it seeks to accomplish.
This means that USAID must make intended results explicit; ensure agreement among
partners, customers, and stakeholders that proposed results are worthwhile; and
organize day-to-day work and interactions to achieve results as effectively as possible.
The Standards for Internal Control in the Federal Government states that “effective
communications should occur in a broad sense with information flowing down, across,
and up the organization.” Additionally, “for an entity to run and control its operations, it
must have relevant, reliable, and timely communications relating to internal as well as
external events. Information is needed throughout the agency to achieve all of its
objectives.”

However, in response to the audit survey, some missions indicated that the manage-to-
budget plan objectives were not defined; guidance has been sporadic, unclear, and
contradictory; deadlines were imposed without adequate time to respond; it was unclear
whether targets were mandatory; target ratios were unrealistic; no feedback was
requested from missions; and increased workload and less flexibility were noted. Figure
2 shows the number of missions and bureaus/offices that reported these issues (out of
36 missions and 9 bureaus/offices that responded to the survey):




                                                                                         15
Figure 2. Number of Missions and Bureaus/Offices Reporting That
Communication Needed Improvement
                            35


                            30
   Number of Missions and
      Bureaus/Offices


                            25


                            20


                            15


                            10


                            5


                            0
                                 Plan   Guidance     Deadlines     Targets   Feedback   Workload

                                                   Needs Improvement


Plan objectives and current status – Some missions indicated a lack of clear
objectives and goals. One mission stated, “Overall, Washington has not provided
adequate information to Missions on what manage-to-budget is, what the requirements
are and are not, what flexibility missions have, the basis for the establishment of the
target percentages, what the expected result or goal is, and how this methodology is
supposed to result in cost savings for the Agency. At the recent Controllers’ conference
there was a debate among Controllers about what manage-to-budget was supposed to
be and accomplish. No one had the same interpretation. Some missions were not sure
if manage-to-budget was still in effect or not.” Another mission stated, “It is unclear how
manage-to-budget can be consistent with the objectives of the Development Leadership
Initiative. Why hire more staff if we can not afford to under manage-to-budget. Who will
mentor the new staff under the Development Leadership Initiative?”

Communication and guidance – Some missions and bureaus/offices pointed to
insufficient communication and clear guidance. For example, one mission stated that
guidance has been sporadic and inconsistent. Another mission stated that guidance
came in bits and pieces in e-mails from various Washington staff. This mission also
stated that no training had been provided to overseas staff regarding the manage-to-
budget initiative. Some missions indicated that clear guidance, detailed instruction,
additional training, and improved support were not provided to accurately implement new
accounting procedures at the mission level. Furthermore, USAID/Washington has not
clarified how and with whom to discuss issues of concern regarding the initiative.
According to another mission, in the past year, very little information was provided about
the manage-to-budget initiative.

Furthermore, it was unclear whether target ratios were mandatory. Several missions
reduced staff significantly and then found out that they did not need to. According to one
mission, “We understood the manage-to-budget targets were mandatory so we had to
make some difficult decisions regarding our staffing. We eliminated five positions to
achieve our targets.”

Another mission stated, “Guidance from Washington was initially presented as a
mandate. The message that was conveyed is that the targets were mandates, not just a
goal to strive towards achieving. Even to date it is impossible to get straightforward



                                                                                                   16
clarification from anywhere in Washington as to the nature of the manage-to-budget
targets and the consequences of exceeding them.”

Another mission stated, “Recently, the target was reduced by 2 percentage points to 10
percent; however, the reason for the change was never clearly communicated by
Washington.”

Deadlines – Some missions indicated that adequate time was not given between
exercise announcements and submission dates. One mission stated that Washington
provided FY 2008 manage-to-budget instructions after the mission had already finalized
its operational plan, and the mission had to make changes to comply with the manage-
to-budget guidance. Another mission stated, “At the last minute, targets were dropped
from 6 percent and 12 percent to 5 percent and 10 percent. We should have had prior
notice.”

Target ratios – It was unclear how the rates were established; specifically, what
methodology or criteria were used. Several missions indicated that individualized target
ratios should take into full consideration the varying costs of the missions, and that
targets need to be established independently on a case-by-case basis.

According to one mission, “Providing fixed targets across USAID does not consider the
specifics of each mission and the environment under which they operate. The
geographic locations, security levels, management structures, roles and responsibilities,
and the political sensitivities and complexities of mission portfolios are completely
different, and as such should in no way be considered equal for setting management
support cost targets.” Another mission stated, “If these budget targets are negotiated in
a transparent manner between Washington and the Mission, then Mission management
could be held more accountable for respecting those budget parameters.”

Some missions and bureaus/offices indicated that target levels were not adequate to
cover the real costs incurred to keep the mission operational, and that trying to meet an
arbitrary ratio could also result in additional costs as missions shift work to contractors or
grantees in order to cut program support costs.

According to one mission, “The original target rate of 6 percent (12 percent total) put
pressure on our Mission to stretch our existing resources to properly manage our
program and operations.” Another mission stated, “manage-to-budget has not allowed
for greater flexibility to control or manage costs. To the contrary, we feel that manage-
to-budget has led to less flexibility for the mission as we try to force our budget numbers
to come close to the pre-established budget targets.”

Mission feedback – Several missions felt that the manage-to-budget initiative was a
top-down initiative conducted without any regard for the missions. The missions have
had no input into the initiative.

Workload – Some missions and bureaus/offices stated that the manage-to-budget
exercise has required considerable staff time because of the additional workload.

According to the Management Bureau, insufficient communication and attention to the
issues noted above was primarily due to three administration changes since the
beginning of the initiative. As each administration changed, so did the focus of the


                                                                                           17
manage-to-budget initiative. Also in the past year, a perceived lack of support for the
manage-to-budget initiative by senior management has resulted in mixed, conflicting
guidance from Washington. In addition, during the same period, USAID underwent a
major organizational change with the establishment of the Office of U.S. Foreign
Assistance at the State Department.

According to the Management Bureau, disseminating knowledge about the initiative is
essential to its success. Participants want to know the initiative’s status and how it will
affect them. The Management Bureau also states that participants are anxious to
participate. The more educated people are about the progress of the initiative and how it
will help them in the future, the more likely they are to participate and benefit.

According to the manage-to-budget framework, lessons learned from the pilots would
provide valuable learning tools prior to full implementation on October 1, 2006.
However, no evaluation of the initiative has been conducted owing to competing
priorities in the Management Bureau’s Office of Management Policy, Budget, and
Performance.

Without a clear objective (which has been changed over the years), an update of the
status of the initiative, and a plan for the future, the initiative may not be effective. Also,
unclear guidance results in increased costs of eliminating and then rehiring staff,
uncertainty for all staff, and low staff morale. Therefore, this audit makes the following
recommendations:

       Recommendation No. 6: We recommend that Management Bureau’s
       Office of Management Policy, Budget, and Performance revise the project
       plan for the manage-to-budget initiative to include the plan’s purpose,
       overall goals and objectives, current status, short-term and long-term
       goals, scope and expectations, milestones for meeting goals, a
       communication plan, and responsible personnel.

       Recommendation No. 7: We recommend that Management Bureau’s
       Office of Management Policy, Budget, and Performance conduct a survey
       or evaluation of the implementation of the manage-to-budget initiative.




                                                                                            18
EVALUATION OF
MANAGEMENT COMMENTS
USAID’s Management Bureau’s Office of Management Policy, Budget, and Performance
and the Office of the Chief Financial Officer’s comments to the draft report are included in
their entirety in appendix II.

In response to recommendation nos. 1 and 5, the Office of Management Policy, Budget,
and Performance agreed to draft an incentive plan and indicators for measuring success by
March 31, 2009. Accordingly, a management decision has been reached for these
recommendations.

Regarding recommendation no. 2, the Office of Management Policy, Budget, and
Performance agreed to make formal decisions regarding the decentralization of office
space and information technology support costs by December 31, 2008. Accordingly, a
management decision has been reached for this recommendation.

In response to recommendation nos. 3 and 4, the Office of the Chief Financial Officer
agreed to address the recommendations together but will need to conduct further research
on the issues to determine how they will be addressed. A management decision for these
recommendations may be reached when USAID’s Office of the Chief Financial Officer has
a plan of action that includes timeframes for completing the actions.

Regarding recommendation no. 6, the Office of Management Policy, Budget, and
Performance agreed to revise the project plan by November 30, 2008, and make it
accessible on the USAID Web site. Accordingly, a management decision has been
reached for this recommendation.

In response to recommendation no. 7, the Office of Management Policy, Budget, and
Performance agreed to conduct two separate surveys—one for the Washington bureaus
and one for the overseas missions. The Office of Management Policy, Budget, and
Performance will explore options for conducting the survey in Washington, DC, and plans
to schedule the survey for the overseas missions by March 31, 2009. Accordingly, a
management decision has been reached for this recommendation.




                                                                                         19
                                                                               APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this audit to determine if USAID’s manage-to-
budget initiative achieved its intended results and what its impact has been. Audit
fieldwork was conducted at USAID headquarters in Washington, DC, from April 23
through July 17, 2008. The audit covered the period from the inception of the manage-
to-budget initiative, April 2005, through July 17, 2008.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.

In planning and performing the audit, we assessed management controls related to
management review of plan activities and milestones, plan implementation, data
verification, and management’s annual self assessment of controls as required by the
Federal Managers’ Financial Integrity Act of 1982. We also interviewed key USAID
personnel in the Management Bureau’s Office of Management Policy, Budget, and
Performance; the Chief Financial Officer; other bureaus/offices in Washington; and
missions involved with the manage-to-budget initiative.

Methodology
We reviewed the manage-to-budget project plan, a mandate from Congress, and other
requirements from the Office of Management and Budget. The manage-to-budget
initiative aimed to achieve the following four objectives: (1) increase/improve
transparency; (2) improve accountability; (3) incentivize managers to control costs; and
(4) decentralize operating expense budgets to provide greater flexibility so that operating
units can manage, control, and account for their own operating expense funds.

To answer the audit objective, we reviewed applicable laws and regulations and USAID
policies and procedures pertaining to the manage-to-budget initiative, including the
following: the Federal Managers’ Financial Integrity Act of 1982, the Federal Funding
Accountability and Transparency Act of 2006, the Strengthening Transparency and
Accountability in Federal Spending Act of 2008, the President’s Management Agenda
(PMA) scorecard, the Office of Management and Budget Circular No. A-11 Section 83
Object Classification, ADS 200 Introduction to Programming Policy (Introduction to
Managing for Results), ADS 203 Assessing and Learning, and budget and spending
reports from USAID’s Phoenix Viewer financial system.

We gathered information from USAID personnel and reviewed documentation related to
the expanded object class code, compensation tracking system, mission overhead rates,
the PMA scorecard, personal incentives for managers under the manage-to-budget
initiative, decentralization of operating expenses, and others. In addition, we sent a survey
to 78 missions and 18 bureaus/offices to evaluate the progress of the manage-to-budget



                                                                                          20
                                                                          APPENDIX I


initiative’ in meeting its objectives.   We received responses from 36 missions and 9
bureaus/offices.




                                                                                  21
                                                            APPENDIX II



MANAGEMENT COMMENTS


MEMORANDUM                               September 30, 2008

TO:        IG/A/PA, Director, Steven H. Bernstein

FROM:      M/MPBP, Angelique Crumbly /s/
           M/CFO, David Ostermeyer /s/

SUBJECT: USAID Plan of Action to Resolve Audit Recommendations
         IG Audit of USAID’s Manage-to-Budget Initiative
         (Report No. 9-0000-08-00X-P)

       We appreciate the Office of the Inspector General’s (OIG)
interest and review of progress made under the Manage–to-Budget
(MTB) initiative. The MTB initiative was started in 2005 at the request
of Congress. It changed the way USAID budgets and manages its
administrative costs. The audit report recognizes the successes of
MTB and identifies areas that can be strengthened to improve its
effectiveness. MTB is a work-in-progress and we are optimistic that
FY 2009 will see greater improvements in fiscal management
consistent with the President’s Management Agenda for improving
financial performance by increasing transparency, improving
accountability, and controlling costs.

      Below are the Office of Management Policy, Budget and
Performance’s (M/MPBP) Management Decisions to address the
seven recommendations contained in the audit report.

Recommendation #1

"Develop an incentive plan for implementation of the MTB initiative in
coordination with the missions and the bureaus, which includes target
dates."


                                                                     22
                                                                APPENDIX II




Recommendation #5

"Establish indicators for measuring the success or impact of the MTB
initiative by linking effectiveness and efficiency measures."

     Recommendations number 1 & 5 are linked and will be
addressed together. A team will be tasked with reviewing these two
recommendations and exploring additional incentive plans.

       Linking program or operational effectiveness to cost efficiency
is a difficult task that the Agency has grappled with for years. The
team will review the performance programs already in place and
explore ideas about how to link and reward cost efficiencies.

      An incentive plan and indicators for measuring success will be
drafted by March 31, 2009.

Recommendation #2

"Develop an action plan with timelines and milestones to decentralize
office space and information technology support costs, or make
formal decisions that office space and information support costs will
not be decentralized."

        The Agency will prepare a formal decision by December 31,
2008.

Recommendation #3

"Establish an action plan, with target dates, for verifying the reliability
of the object class coding on a regular basis throughout the year."

Recommendation #4

"Obtain confirmation from all impacted operating units that the coding
errors identified have been corrected."

     Recommendations number 3 & 4 are linked and will be
addressed together. However, the Office of the Chief Financial


                                                                          23
                                                            APPENDIX II


Officer needs to further study the broad issue of data quality and how
it will be addressed.


Recommendation #6

"Revise the project plan for the manage-to-budget initiative, which
includes the plan’s purpose, overall goals and objectives, current
status of plan, achievements to date, short-term and long-term goals,
scope and expectations, milestones for meeting those goals, a
communication plan, and responsible personnel."

    M/MPBP will revise the project plan by November 30, 2008 and
make it accessible on the USAID MTB web site.

Recommendation #7

"Conduct a survey or evaluation of the implementation of the
manage-to-budget initiative."

      The Performance Division of M/MPBP will conduct two
separate evaluations, one for Washington Operating Units and
another for field missions. One of the surveys, a customer satisfaction
and suggestion survey will be web-based, and targeted to the users
of the Compensation Tracking System and the Budget Formulation &
Execution Manager. We plan to explore this idea with Office of the
Chief Information Officer’s Web Team in October 2008 to see what
options are available to us. For example, after completing a session
in CTS, users might be asked to complete a brief web-based survey.
The other survey would be directed to missions to obtain their
feedback and understanding of the MTB initiative. Since the OIG just
completed an evaluation survey as part of this audit and the point of
this evaluation is to assess the improvements in the implementation
and communications of MTB initiative, we plan to schedule the field
survey by March 31, 2009.




                                                                     24
                                                                                                                                                                                          APPENDIX III


                                                                        FY 2007 Total Administrative Ratios

                                                                                   Graph 1: Fiscal Year 2007 Total Administrative Ratios
                                                55%
                                                50%                                                                                                                                            Target
                        Administrative Ratios



                                                45%                                                                                                                                            Actual
                                                40%
                                                35%
                                                30%
                                                25%
                                                20%
                                                15%
                                                10%
                                                 5%
                                                 0%
                                                  Africa              Asia and Near           Europe and             Latin America Democracy,                           Economic             Global Health
                                                                           East                Eurasia               and Caribbean Conflict, and                         Growth,
                                                                                                                                   Humanitarian                         Agriculture,
                                                                                                                                    Assistance                          and Trade
                                                                                                                         Bureaus




                                                                                   Graph 2: Fiscal Year 2007 Total Administrative Ratios - Africa


                                   70%
                                                                        Djibouti
                                                                                                                                       The Regional Economic Development
                                   65%
                                                                                                                                       Services Office for
                                                                                                                                                                                                          Target
                                   60%                                                                                                 East and Southern Africa                                           Actual
                                   55%

                                   50%
                                                                                                                                          Namibia
                                   45%
                                                                                                                                                              Regional Center
Administrative Ratios




                                                                                                                                                              for Southern Africa
                                   40%

                                                                                                                                                                                      South Africa
                                   35%
                                                 Benin
                                   30%
                                                                                                                                                                                                     West Africa
                                                                                                                                                                                                     Regional Program
                                   25%
                                                                   Democratic Republic           Kenya                          Mali                Nigeria                                                             Zimbabwe
                                   20%                                 of Congo                                                                                          Senegal
                                                         Burundi                  Ethiopia                                             Mozambique
                                                                                                         Liberia                                                                                          Uganda        Zambia
                                   15%
                                                                                                                   Madagascar
                                   10%                                                                                                                                                               Tanzania
                                                Angola                                       Guinea                                                                 Rwanda
                                                           Central Africa                                                Malawi                                                 Somalia
                                                                                             and                                                                                           Sudan
                                          5%               Regional                 Ghana    Sierra Leone

                                          0%

                                                                                                                            Missions




                                                                                                                                                                                                                25
                                                                                                                                                                                          APPENDIX III



                                                                        Graph 3: Fiscal Year 2007 Total Administrative Ratios - Latin America


                                   100%
                                                                                                                                                             Haiti
                                                                                                                                                                                                                Target
                                    90%
                                                                                                                                                                                                                Actual
                                    80%
           Administrative Ratios




                                    70%


                                    60%


                                    50%
                                                                                                                                                                                     Jamaica
                                    40%
                                                                                                                            El Salvador
                                                                                                                                                                                                            Panama
                                    30%
                                                                                              Dominican Republic
                                                          Brazil                                                                               Guyana
                                                                   Central America Regional
                                    20%                                                                                       Guatemala
                                                                                                                                                                         Honduras                Mexico                            Peru
                                             Bolivia                                                         Ecuador                                                                                                Paraguay
                                    10%
                                                               Caribbean                   Columbia
                                                            Regional Program
                                     0%

                                                                                                                     Missions




                                                                                Graph 4: Fiscal Year 2007 Total Administrative Ratios - Asia

                               100%


                                   90%                                                                                                                                                                         Target
                                                                                                                                                                                                               Actual
                                   80%
Administrative Ratios




                                   70%


                                   60%


                                   50%                                                                                                                                                                          West Bank
                                                                                                                                                                                               Regional
                                                                                                                                                                                                                  and
                                                                                                                                                                                             Development
                                                                                                                                                                                                                 Gaza
                                   40%                                                                                                                                                         Mission
                                                                                                      Iraq                                                                                       Asia
                                                                                                                                                                           Sri Lanka
                                   30%
                                                                                                                                           Morocco

                                                                                                                                                                 Philippines
                                   20%                             East Timor
                                           Bangladesh                              India                            Lebanon                          Nepal
                                                                                                                                                                                    South Asia
                                                                                                                                    Mongolia                                                                               Yemen
                                                                                                                                                                                     Regional
                                   10%
                                                        Cambodia                                                                                                                                          Vietnam
                                                                                              Indonesia
                                          Afghanistan                           Egypt                              Jordan                                     Pakistan
                                   0%

                                                                                                                            Missions




                                                                                                                                                                                                                     26
                                                                                                                                                               APPENDIX III



                                                   Graph 5: Fiscal Year 2007 Total Administrative Ratios - Europe and Eurasia
                        100%


                        90%                                                                                                                                                       Target

                        80%
                                                                                                                                                                                  Actual
Administrative Ratios




                        70%


                        60%


                        50%


                        40%


                        30%
                                                                                                                                                                                        Serbia
                                                                  Bosnia and Herzegovina                                                                                     Russia      and
                               Albania                                                                                                                 Macedonia
                        20%                                                                                                                                                           Mentenegro
                                                     Azerbaijan                         Central Asian Republic
                                                                                                                          Georgia             Kosovo

                        10%              Armenia
                                                                                                                 Cyprus                                                                    Ukraine
                                                                             Bulgaria              Croatia                          Hungary                        Romania                 Moldova
                         0%
                                                                                                                                                                                           Belarus
                                                                                                             Missions




                                                                                                                                                                                      27
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
